TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Annual Assessment of the Internal Revenue
                  Service Information Technology Program



                                      September 29, 2011

                              Reference Number: 2011-20-106




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


ANNUAL ASSESSMENT OF THE                             The IRS’s Fiscal Year 2011 financial plan for its
INTERNAL REVENUE SERVICE                             Information Technology Program and operations
INFORMATION TECHNOLOGY                               remained relatively flat from its Fiscal Year 2010
PROGRAM                                              budget of $1.8 billion. The Fiscal Year 2011
                                                     financial plan included about $264 million to go
                                                     towards the Modernization Program. As of
Highlights                                           July 2011, the Modernization and Information
                                                     Technology Services organization employed
                                                     over 7,300 individuals.
Final Report issued on
September 29, 2011                                   Since last year’s assessment, significant
                                                     systems have been developed and implemented
Highlights of Reference Number: 2011-20-106          to improve the tax return processing
to the Internal Revenue Service Chief                environment, and additional improvements and
Technology Officer.                                  upgrades are being developed and
                                                     implemented. As such, TIGTA supports the
IMPACT ON TAXPAYERS                                  IRS’s request to downgrade the Modernization
The Internal Revenue Service (IRS) relies            Program material weakness. However,
extensively on its computer systems to carry out     computer security remains a material weakness,
the responsibilities of administering our Nation’s   and the IRS needs to continue its emphasis and
tax laws. As such, it must ensure its computer       attention on becoming a security-conscious
systems are effectively secured to protect           organization.
financial and taxpayer data. The IRS also needs      TIGTA also noted that the information
to ensure that it leverages technological            technology operations program has
advances to update its computer operations and       implemented best practice principles, such as
improve customer satisfaction and that the           the Information Technology Infrastructure
computer systems supporting tax administration       Library, designed to improve efficiency and
continue to operate efficiently and effectively.     effectiveness, and has taken action to improve
                                                     the energy efficiency of its desktop computer
WHY TIGTA DID THE AUDIT
                                                     equipment. While TIGTA is encouraged by
This audit was initiated as part of TIGTA’s Fiscal   these actions, the IRS has opportunities for
Year 2011 Annual Audit Plan and addresses the        making improvements and measuring its results.
major management challenges of Security and
Modernization. TIGTA annually assesses and           WHAT TIGTA RECOMMENDED
reports on the adequacy and security of IRS          Because this was an assessment report of the
information technology, as required by the IRS       IRS’s Information Technology Program through
Restructuring and Reform Act of 1998.                Fiscal Year 2011, TIGTA did not offer any
                                                     recommendations. IRS officials were provided
WHAT TIGTA FOUND
                                                     an opportunity to review and comment on the
The Business Systems Modernization Program           report.
(Modernization Program) is a complex effort to
modernize IRS technology and related business
practices. It involves integrating thousands of
hardware and software components while
replacing outdated technology and maintaining
the current tax system. The IRS would not be
able to deliver the Modernization Program
without the support of the Cybersecurity and
Enterprise Operations organizations.
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 29, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Annual Assessment of the Internal Revenue
                               Service Information Technology Program (Audit # 201120003)

 This report presents the results of our annual assessment of the Internal Revenue Service (IRS)
 Information Technology Program. The overall objective of this review was to assess the status
 of the IRS’s Information Technology Program since June 2010, as required by the IRS
 Restructuring and Reform Act of 1998.1 This review is part of our Fiscal Year 2011 Annual
 Audit Plan and addresses the major management challenges of Security and Modernization.
 Copies of this report are also being sent to the IRS managers affected by the report findings.
 Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services), at (202) 622-5894.




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C.,31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                Annual Assessment of the Internal Revenue Service
                                         Information Technology Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Modernization Program Background ........................................................... Page 4
          The Modernization Program Continues to Deliver Business Value
          and Benefits to Taxpayers ............................................................................. Page 4
          The Modernization Program Demonstrates Improvements in
          Delivering Planned Capabilities ................................................................... Page 7
          The Modernization Program Addressed Process
          and Control Weaknesses ............................................................................... Page 11
          Information Security Background................................................................. Page 13
          Some Progress Is Being Made to Improve Information Security ................. Page 14
          Continued Emphasis and Attention Is Needed to Allow the Internal
          Revenue Service to Become a Security-Conscious Organization ................ Page 18
          Information Technology Operations Background ........................................ Page 20
          The Information Technology Operations Program Has Improved
          Its Efficiency and Effectiveness.................................................................... Page 20

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 26
          Appendix II – Major Contributors to This Report ........................................ Page 28
          Appendix III – Report Distribution List ....................................................... Page 29
          Appendix IV – Listing of Treasury Inspector General for Tax
          Administration Reports Reviewed ................................................................ Page 30
          Appendix V – Project Cost and Schedule Variances .................................... Page 33
          Appendix VI – Glossary of Terms ................................................................ Page 34
        Annual Assessment of the Internal Revenue Service
                 Information Technology Program




                  Abbreviations

CADE        Customer Account Data Engine
FY          Fiscal Year
IBM         International Business Machines Corporation
IRS         Internal Revenue Service
MeF         Modernized e-File
MITS        Modernization and Information Technology Services
TIGTA       Treasury Inspector General for Tax Administration
                             Annual Assessment of the Internal Revenue Service
                                      Information Technology Program




                                             Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to annually evaluate the adequacy
and security of the IRS Information Technology Program. This report provides our assessment
of the IRS’s Information Technology Program and operations.
As of July 2011, the Modernization and Information Technology Services (MITS) organization
employed over 7,300 individuals. Figure 1 provides a breakdown of MITS employees by their
respective business unit functions.
                     Figure 1: Number of MITS Employees by Business Unit
                                              (in descending order)


     MITS Business Unit                                                              Number of Employees

     Applications Development                                                                   2,397
     Enterprise Operations                                                                      1,748
     End Users Equipment & Services                                                             1,295
     Enterprise Networks                                                                         510
     Cybersecurity                                                                               410
     Enterprise Services                                                                         287
     Strategy & Planning                                                                         270
     Affordable Care Act – Program Management Office                                             267
     Management Services                                                                          73
     Customer Account Data Engine Program Management Office                                       68
     Equal Employment Opportunity and Diversity                                                   7
     Deputy Chief Information Officer for Strategy/Modernization                                  4
     Deputy Chief Information Officer for Operations                                              3
                                       TOTAL                                                    7,339
    Source: Treasury Integrated Management Information System as of July 2011.


1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 1
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



The IRS’s Fiscal Year (FY) 2011 financial plan for its Information Technology Program and
operations remained relatively flat from its FY 2010 budget of $1.8 billion. In addition, the
FY 2011 financial plan included about $264 million to go towards the Business Systems
Modernization Program (Modernization Program).
While the IRS’s Modernization Program encompasses dozens of projects and systems, the core
projects that the IRS refers to as the “Pillars of Modernization” are the:
    •   Current Customer Account Data Engine (CADE) and CADE 22 – the databases and
        related applications that include applications for daily posting, settlement, maintenance,
        refund processing, and issue detection for taxpayer tax account and return data.
    •   Modernized e-File (MeF) – an electronic filing platform used for electronic filing of tax
        returns for both business and individual taxpayers.
    •   Account Management Services/Integrated Data Retrieval System – systems that provide
        IRS employees with the ability to view, access, update, and manage taxpayer accounts.
The IRS would not be able to deliver these core projects without the support of the Cybersecurity
and Enterprise Operations organizations. The Cybersecurity organization is responsible for
ensuring the IRS’s compliance with Federal statutory, legislative, and regulatory requirements
governing measures to assure the confidentiality, integrity, and availability of IRS electronic
systems, services, and data. The Enterprise Operations organization supports the MITS
organization by providing efficient, cost-effective, secure, and highly reliable computing
(mainframe and server) services for all IRS business entities and taxpayers.
In March 2010, Congress enacted legislation that will significantly impact the work performed
by the MITS organization. The Patient Protection and Affordable Care Act3 was signed into law
and later amended on March 30, 2010, by the Health Care and Education Reconciliation Act4
(hereafter referred to as the Affordable Care Act). At least 42 provisions add to or amend the
Internal Revenue Code, and at least 8 require the MITS organization to build new processes that
do not exist in current tax administration. The IRS realized the vastness of the work required by
the Affordable Care Act and, in June 2010, created a new organization called the Associate Chief
Information Officer Affordable Care Act – Program Management Office (hereafter called the
Program Management Office) to mitigate any impact to its ongoing development efforts and to
ensure successful delivery of the required new systems. The Program Management Office will
be accountable for achieving the defined goals and for managing and integrating the required
components, including building new services and applications, enhancing and extending existing
applications, and ensuring that the appropriate governance and control processes are followed
throughout implementation.

2
  See Appendix VI for a glossary of terms.
3
  Pub. L. No. 111-148, 124 Stat. 119 (2010).
4
  Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                             Page 2
                             Annual Assessment of the Internal Revenue Service
                                      Information Technology Program



The compilation of information for this report was conducted at the TIGTA office in Atlanta,
Georgia, during the period May through July 2011. The information presented in this report is
derived from TIGTA audit reports issued since June 2010. We also reviewed relevant
Government Accountability Office reports relating to IRS information technology issues. These
previous audits and our analyses were conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. One of our audits is on the Federal Information
Security Management Act.5 For this review, we conduct an annual independent evaluation of
information security policies, procedures, and practices as well as evaluate compliance with
Federal Information Security Management Act requirements. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II. A listing of the audit
reports used in this assessment is presented in Appendix IV.




5
    44 United States Code (U.S.C.) sections (§§) 3541–3549.
                                                                                        Page 3
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program




                                Results of Review

Modernization Program Background
For FY 2011, the TIGTA cited that modernization of IRS technology and business processes was
the second top challenge for the IRS. The Modernization Program is a complex effort to
modernize IRS technology and related business processes. It involves integrating thousands of
hardware and software components while replacing outdated technology and maintaining the
current tax system. The Modernization Program receives separate funding from Congress.
Since its inception in FY 1999, the IRS has received over $3 billion. The IRS projected it
needed $334 million for the Modernization Program in its FY 2012 budget request.
Factors that characterize the IRS’s complex information technology environment include widely
varying inputs from taxpayers (from simple concise records to complex voluminous documents),
seasonal processing with extreme variations in processing loads, transaction rates on the order of
billions per year, and data storage measured in trillions of bytes. The Modernization Program is
working toward providing improved benefits to taxpayers that include:
   •   Issuing refunds, on average, 5 days faster than existing legacy systems.
   •   Offering electronic filing capability for individuals, large corporations and small
       businesses, tax-exempt organizations, and partnerships, with dramatically reduced
       processing error rates.
   •   Delivering web-based services for tax practitioners, taxpayers, and IRS employees.
   •   Providing IRS customer service representatives with faster and improved access to
       taxpayer account data with real-time data entry, validation, and updates of taxpayer
       addresses.

The Modernization Program Continues to Deliver Business Value and
Benefits to Taxpayers
Data and technology are central to the future of tax administration. The IRS is on schedule to
deliver the CADE 2 system for the 2012 Filing Season. Completion of the CADE 2 system is
the cornerstone of IRS information technology modernization that will expedite refunds to
millions of individual taxpayers. It is also a prerequisite for other major initiatives, such as
expansion of online paperless services. The ability of the IRS to support increasingly complex
taxpayer service and compliance initiatives will be severely limited until the new taxpayer
account database is completed. IRS modernization efforts continue to focus on core tax

                                                                                             Page 4
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



administration systems designed to provide more sophisticated tools to taxpayers and to IRS
employees. The Modernization Program has continued to provide new information technology
capabilities and the related benefits to both the IRS and taxpayers. Since January 2011, the IRS
has implemented new versions of the current CADE and MeF systems and the Account
Management Services system. Additionally, the IRS has continued making progress in preparing
for the deployment of the CADE 2 system.

Current Customer Account Data Engine
The current CADE system is a component of the Modernization Program. It consists of
modernized databases and related applications that work in conjunction with the IRS Master
File System. Current CADE Release 6.2 was deployed in January 2011 to incorporate Tax
Year 2010 tax law changes affecting individual taxpayers and to provide technical improvements
to the infrastructure and availability of the CADE system. From January through May 2011, the
current CADE system processed over 39.9 million tax returns and issued more than 35.1 million
refunds totaling in excess of $65.6 billion.
The current CADE system is in the process of transferring accounts back to the IRS Master File
in preparation for the transition to the CADE 2 system. As of May 2011, the IRS migrated over
69 million accounts and was on track to complete the migration process by the end of June 2011.
Once the migration of the current CADE to CADE 2 system is complete, the current CADE
system will be taken offline.

Customer Account Data Engine 2
The CADE 2 Program is the top information technology modernization project in the IRS. The
CADE 2 strategy involves three phases:
        Transition State 1. Modifies the Individual Master File from a weekly cycle to daily
        processing, establishes a new relational database to store all individual taxpayer account
        information, and provides management tools to more effectively use data for
        compliance and customer service. The IRS plans to implement Transition State 1 in
        January 2012.
        Transition State 2. Launches a single processing system where applications directly
        access and update the taxpayer account database. It will continue efforts toward
        addressing previously identified financial material weaknesses. The IRS plans to
        implement Transition State 2 in January 2014. During a June 16, 2011, meeting with
        IRS Modernization executives, the TIGTA learned that a lack of funding may delay
        delivery of this phase. The IRS is working to identify funding it could use to begin
        high-level planning efforts.
        Target State. Consists of a single system using elements of the Individual Master File
        and the current CADE system, eliminating all transitional applications used to link the

                                                                                           Page 5
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



         current CADE system, Individual Master File, and the Integrated Data Retrieval
         System. The complete solution is also planned to address all the financial material
         weaknesses. As of April 28, 2011, the IRS had not established a Target State
         implementation date.
The IRS established the CADE 2 Program Management Office to provide state-of-the-art
individual taxpayer account processing and technologies to improve service to taxpayers. The
CADE 2 Program Management Office plans to create a modernized processing environment
where applications both access and update an authoritative relational database to manage all
individual taxpayer accounts. To assist in this effort, the IRS established two systems
development projects (Daily Processing and Database Implementation) and completed several
prototypes. The objective of each prototype was to demonstrate confidence in the CADE 2
approach by verifying system viability and performance and defining components to serve as the
foundation for development activities.
With the “go-live” date for Transition State 1 fast approaching, the IRS continues to work on
ensuring the CADE 2 system is successfully deployed by dividing the processing framework into
manageable segments. The IRS also developed a set of guiding principles that will help enable a
seamless and successful “go live” and post-implementation support for Transition State 1. Some
of these principles include:
   •   Ensuring the most critical components with the highest impact/risk are prioritized in
       order to increase the likelihood of overall project success.
   •   Including people, processes, and technology in discussions about change.
   •   Establishing a central readiness team to monitor progress and ensure key messages are
       consistently communicated throughout the organization.

Modernized e-File
The MeF system streamlines tax return filing processes and reduces the costs associated with
paper tax returns. The first phase of the MeF system (Release 6.1) for individual income tax
returns included the U.S. Individual Income Tax Return (Form 1040), Application for Automatic
Extension of Time to File U.S. Individual Income Tax Return (Form 4868), and 21 forms and
schedules related to the Form 1040 for Tax Year 2009. The IRS first began accepting individual
tax returns through the MeF system in February 2010.
The second phase of the MeF system (Release 6.2) for individual income tax returns was
implemented during the 2011 Filing Season. Release 6.2 does not provide for the filing of any
additional tax forms or schedules. The primary difference between the functionality of
Releases 6.1 and 6.2 is the ability for individual taxpayers to file prior year tax returns. For
example, for the 2011 Filing Season, individual taxpayers will be able to file both their Tax
Years 2009 and 2010 tax returns using the MeF system.

                                                                                           Page 6
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



Returns submitted through the MeF system have an average of 8 percent processing error rate,
compared to 19 percent for transcription-based paper processing. As of May 31, 2011, the IRS
accepted 9.8 million individual tax returns transmitted through the MeF system for processing, in
addition to the 6.3 million corporate, partnership, and exempt organization returns and forms
accepted. The third phase of the MeF system (Release 7.0) is planned for deployment in
Fiscal Year 2012 and includes the rollout of over 125 remaining Forms 1040, including the
Income Tax Return for Single and Joint Filers With No Dependents (Form 1040 EZ). The IRS
plans to spend about $67.2 million on this release of the MeF system.

Account Management Services
The Account Management Services system provides IRS employees with the tools to access
information quickly and accurately in response to complex customer inquiries. The final
Account Management Services system release, Release 2.1, provided all users (approximately
40,000) with the ability to view correspondence images online and on demand. Direct access to
view images reduced case cycle time from 10–14 days to zero. In May 2011 alone, the Account
Management Services system processed over 234,000 correspondence image view requests. The
cumulative total of correspondence image view requests exceeded 2.7 million since its
deployment in February 2010.

The Modernization Program Demonstrates Improvement in Delivering
Planned Capabilities
The Modernization Program continues to help improve IRS operations and has demonstrated
successes in improving business practices by implementing new information technology
solutions. Management of project costs and schedule has shown a drastic improvement, but
requirements development and management continues to need attention.

Process improvement activities
The IRS has a sophisticated Enterprise Life Cycle development process that it uses for large
application development projects. However, this process contains several development phases
(i.e., milestone reviews), can require extensive documentation, and may take several months to
years to complete. Therefore, the IRS Enterprise Life Cycle Project Management Office is
working within the applications development offices to develop more streamlined lifecycle
processes for smaller, faster paced developments. For this reason, the MITS organization has
taken steps to implement an iterative approach to its systems development activities.
The iterative path is an adaptive development approach in which projects start with initial
planning and end with deployment, with repeated cycles of requirements discovery,
development, and testing in between. This development path is well suited to projects and
environments that change rapidly, because each iteration presents new opportunities for the

                                                                                          Page 7
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



project to adapt to change. Some benefits of implementing the iterative path approach include
streamlining the number of development phases, involving process owners and business
stakeholders to continuously provide feedback, and prototyping (i.e., developing an early version
of the solution to see if it meets needs).
During FY 2011, we conducted several audits of the IRS’s systems development activities and
found the IRS made progress adopting the iterative path.
    •   During our review to determine the effectiveness of the CADE 2 prototype efforts, we
        found that the CADE 2 Program Management Office created five prototype teams to
        demonstrate confidence in the CADE 2 solution by verifying system viability and
        performance and by defining components that will serve as the foundation for
        development activities. In addition, the prototype teams generally managed their
        objectives effectively and took steps to overcome risks identified during prototype
        planning.6
    •   During our review to determine whether the IRS adequately tested and secured the
        IRS2GO smartphone application, we determined the IRS2GO application adequately
        protects data transmissions and personally identifiable information. The IRS smartphone
        application provides tax tips to the smartphone user and allows the user to check on the
        status of his or her tax refund.7
    •   During our review to evaluate the MITS organization’s planning effort to implement the
        Affordable Care Act, we identified that the Program Management Office implemented
        processes to ensure that the systems it develops meet the businesses needs by involving
        business unit representatives in the development and decisionmaking processes. We also
        found that the Program Management Office collaborates with its internal and external
        stakeholders. For example, the Program Management Office staff conducted periodic
        joint meetings with the internal stakeholders such as the following: the Large Business
        and International, Small Business/Self-Employed, and Tax Exempt and Government
        Entities Divisions. Topics of discussions include requests for approval to use a particular
        development process and approval to begin projects and action items such as working to
        minimize the impact to filing season projects.8

Modernization Program cost and schedule management
In our FY 2010 assessment of the Modernization Program,9 we reported that 3 (38 percent) of the
8 project milestones were not delivered within the accepted 10 percent variance in schedule.


6
  See Appendix IV, Number 4.
7
  See Appendix IV, Number 23.
8
  See Appendix IV, Number 25.
9
  See Appendix IV, Number 3.
                                                                                            Page 8
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



This fiscal year, the IRS delivered all 7 of its projects milestones on time and almost all were
completed within the accepted 10 percent variance for cost. The exception to this was for MeF
Release 7. This project experienced a 24 percent cost variance.
Appendix V presents the cost and schedule variance for Modernization Program project releases
delivered from October 2010 through June 2011.

Some systems development disciplines continue to need attention
During the past year, the TIGTA reported on the adequacy of the development and management
of the Modernization Program and other modernization project requirements. These issues
included adequacy of controls for managing the development of requirements, documentation
and controls over requirements testing and traceability, and updating project work breakdown
schedules. These issues were present in five Modernization Program reports on the CADE 2
Program and the MeF Program.
CADE 2 Prototypes – The CADE 2 Program Management Office took steps to formulate and
initiate prototype efforts. These steps included development of program guidance and prototype
processes and steps to identify and manage risks related to the prototyping efforts. Further, the
CADE 2 Program Management Office took actions to monitor and evaluate progress in
accomplishing the prototype objectives. However, some of the prototype teams did not initially
document test plans, test results, and issues logs. Without these documents, relevant business
requirements needed for testing may be omitted, there may not be sufficient evidence to show all
necessary requirements were tested, and similar issues could recur.10
CADE 2 Program Management Office – The CADE 2 Program Management Office was
established with a mission to provide state-of-the-art individual taxpayer account processing and
technologies to improve service to taxpayers and enhance IRS tax administration. The CADE 2
Program Management Office issued guidelines for key systems development processes and
convened numerous meetings to provide oversight for the work being performed. As status
meetings were convened, it became evident to CADE 2 Program Management Office officials
there was a significant challenge involved in assembling diverse processes into a comprehensive
set of activities that would be well understood and consistently applied across the Program and
the projects. While Program guidelines specified the systems development procedures, the
guidelines and the actual processes performed by the project teams were not always consistent.
For example, the CADE 2 Program Management Office did not initially have a Program Test
Plan and, as a result, experienced multiple delays in its development during the course of our
review. If the CADE 2 project teams do not receive sufficient guidance on developing their test
plans, the CADE 2 system may not be properly tested and the system may not work as intended



10
     See Appendix IV, Number 4.
                                                                                           Page 9
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



when deployed into IRS operations. During the course of our review, the IRS developed the
required Program Test Plan.11
CADE 2 Daily Processing – The CADE 2 Daily Processing project is not a new application
development project. Instead, it will enhance the existing IRS Master File, currently processing
on a weekly schedule, and make it daily processing. By moving to daily processing, the CADE 2
Daily Processing project will provide immediate and obvious benefits, including faster refunds to
taxpayers, faster posting of payments, and more efficient adjustments to taxpayer accounts.
Our review determined the CADE 2 Daily Processing project has steadily progressed from
project initiation (Milestone 1) through Physical Design (Milestone 4a). As a result, the IRS is
closer to achieving one of its modernization goals, daily processing of taxpayer accounts.
However, the CADE 2 Daily Processing business rules were not gathered and completed as
required and were still being developed after the December 2010 Milestone 3 exit. For example,
when the Milestone 3 exit occurred, the business rule that determines eligibility of accounts for
daily processing was not developed. Additionally, prior to the Milestone 4a exit, 16 business
rules were not written as required by the Enterprise Life Cycle. The risk of incomplete business
rules could contribute to untraced requirements, which may adversely impact systems design and
testing activities.12
CADE 2 Database Implementation – As part of the CADE 2 Transition State 1, the IRS
established the Database Implementation project to move it away from operating in two tax
processing environments and to maintain a single system of record for all individual taxpayer
accounts. The primary deliverable of the CADE 2 Database Implementation project is a
relational database that will house individual taxpayer account data, currently being processed by
the IRS Master File and current CADE system. The CADE 2 Database Implementation team
made progress towards implementing this new project and providing IRS employees with the
ability to view updated taxpayer account information online. However, the work breakdown
structure used to define and group project tasks and define the scope of the project was not
comprehensive in including all activities through Milestone 5.13
MeF – In our report on the development of MeF Release 6.2, we reported that improvements are
needed for tracking performance issues. Specifically, internal matrices captured performance
enhancements; however, there was either inadequate or no support documentation for performing
and tracking work or for showing that necessary corrective action was taken. As a result, the
TIGTA was unable to validate whether captured performance elements identified during the
2010 Filing Season were ever resolved. In addition, the IRS did not follow the MeF Risk
Management Plan, which requires all issues and candidate risks to be entered into the Item
Tracking Reporting and Control System to ensure monitoring and control by external

11
   See Appendix IV, Number 9.
12
   See Appendix IV, Number 7.
13
   See Appendix IV, Number 8.
                                                                                          Page 10
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



stakeholders. During our review of the administration and oversight of the MeF Program, we
identified several issues and risks that the IRS did not properly track. The lack of adherence to
guidance negatively impacts the IRS’s ability to efficiently monitor and track issues that are
critical for external stakeholder awareness.14
We also recently completed an audit to determine whether individual income tax returns will be
accurately and timely processed and whether sufficient progress is being made to replace the
Legacy e-File system for individual tax returns in the 2013 Filing Season. We reported that
processes used to test and monitor the MeF system do not ensure MeF system business rules
designed to validate basic requirements on a tax return are working as intended. As a result, the
IRS continues to have limited assurance that the MeF system is accurately processing individual
tax returns. Ineffective or insufficient monitoring of tax return processing increases the risk that
tax returns processed through the MeF system will be erroneously accepted or rejected. This risk
will grow significantly as the volume of tax returns processed through the MeF system increases
and the types of forms and schedules are expanded. In addition, lower than expected tax return
transmitter participation and tax return volumes raise significant concern regarding the IRS’s
ability to fully replace the Legacy e-File system for the 2013 Filing Season.15

The Modernization Program Addressed Process and Control
Weaknesses
In last year’s assessment report, we reported that the IRS had plans to refocus the Modernization
Program, especially as it related to CADE 2 Program activities. At that time, we believed the
IRS should continue to consider the overall Modernization Program as a material weakness until
it could demonstrate success with the CADE 2 system. In response to our report, IRS
management commented the IRS is at a key point in the Modernization Program and is well on
the way to successfully demonstrating that the CADE 2 system can operate securely and
effectively.
When the IRS agreed to declare the Modernization Program as a material weakness in Calendar
Year 1995, it set up an Action Plan that listed all of the management and control weaknesses that
needed improvement. The goal of the Action Plan was to “improve IRS modernization
management controls and processes to consistently improve delivery of systems with expected
functionality within budget and on time that will dramatically improve both internal operations
and services to taxpayers.” The Action Plan included identifying gaps and weaknesses,
establishing corrective actions, monitoring progress, and identifying continuous improvement
opportunities.



14
     See Appendix IV, Number 6.
15
     See Appendix IV, Number 28.
                                                                                            Page 11
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



The key indicators used to evaluate the progress on the Action Plan are: effective management
processes will be delivery of systems on time and within budget (variance of less than 10 percent
for estimates of the next Milestone at the prior Milestone exit); no significant decrease in
functionality; and relatively clean management process audits from the TIGTA and from the
review of the Modernization Annual Expenditure Plan by the Government Accountability Office.
Management processes include risk management, configuration management, cost and schedule
estimating, management reporting, human capital management, Enterprise Life Cycle, and
several other agreed-to management processes as reported every month by the IRS.
In addition to the Action Plan, the IRS instituted a program to monitor action plans built on the
Capability Maturity Model Integration16 framework for the control weaknesses that needed
improvement to ensure they were managed in accordance with agreed metrics. At the request of
the IRS, we completed work to determine whether the Applications Development function’s
Quality Assurance Program Office ensures development projects implement a coordinated set of
activities that conform to organizational policies, processes, and procedures that meet the
standards of Capability Maturity Model Integration – Development maturity level 2.17 We found
the Internal Revenue Manual included the quality assurance requirements. Further, the Quality
Assurance Program Office’s processes, guidance, and procedures generally meet the
requirements for quality assurance. In addition, qualified specialists were employed to perform
audits to determine the level of compliance with the organizational standards, processes, and
procedures, and feedback was provided to project staff and managers on the results of the quality
assurance activities. The Quality Assurance Program Office met the annual audit plan goals in
FYs 2008 and 2009 by performing 65 audits and 79 audits, respectively. The IRS received
external accreditation for maturity level 2 in November 2010, indicating that the Applications
Development function exhibits a managed level of maturity with basic project management
capability focus in key process areas. The IRS plans to achieve maturity level 3 (a more
“defined” level of maturity with process standardization) in FY 2013.
During FY 2011, the Chief Technology Officer and other MITS executives met with the TIGTA
to request support to downgrade the IRS’s Modernization Program material weakness. The
MITS organization’s position is that the IRS has met all of the conditions and completed all
management and control improvements from the original and revised action plans the IRS
defined to resolve the material weakness. In its June 2011 request letter to the Department of the
Treasury, IRS management cited several key accomplishments, such as implementing a
high-priority initiative process to address ongoing improvements, implementing the previously
discussed Capability Maturity Model Integration framework, and sustaining performance
delivering systems on time and within budget (see the prior section on cost and schedule
management).

16
   The Capability Maturity Model Integration defines industry best practices for management software development
projects as set forth by industry experts.
17
   See Appendix IV, Number 5.
                                                                                                       Page 12
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



The TIGTA has been involved in audits of the Modernization Program since FY 2000, and we
have seen the improvement in the management and controls of the program. While our audit
reports have pointed out (and continue to do so) concerns and issues with the implementation of
the management controls, overall we have seen significant progress in the management of the
Modernization Program. Significant systems such as the CADE 2, Account Management
Services, and MeF systems have been developed and rolled out to improve the tax return
processing environment, and additional improvements and upgrades are being developed and
implemented.
As such, we concur that the IRS has substantially completed the improvement items listed in the
Action Plan and has met the indicators used to evaluate its progress. We would support the
request to downgrade the Modernization Program from a material weakness to a deficiency.
This does not mean that the Modernization Program no longer has concerns and issues, but the
improvements put in place (and reviewed by the TIGTA and the Government Accountability
Office) have generally improved the management of the Modernization Program. We would
suggest that the IRS consider the Modernization Program to be a high-risk area and continue to
stress improvements in processes and performance. IRS management indicated that once the
Modernization Program achieves Capability Maturity Model Integration maturity level 3, it will
seek to close this deficiency.

Information Security Background
The IRS relies extensively on its computer systems to carry out the demanding responsibilities of
administering our Nation’s tax laws, including the processing of Federal tax returns. According
to the IRS Data Book, 2010, the IRS received more than 230 million tax returns, of which
141 million returns were from individual taxpayers. As computer usage continues to be
inextricably integrated into the IRS’s core business processes, the need for effective information
system security becomes essential to ensure that data is protected against inadvertent or
deliberate misuse, improper disclosure, or destruction and that computer operations supporting
tax administration are secured against disruption or compromise.
The IRS, like all other Federal Government entities, faces the daunting task of securing its
computer systems against the growing threats of cyber attacks. According to the Office of
Management and Budget’s FY 2010 report to Congress on the implementation of the Federal
Information Security Management Act, the number of cyber incidents affecting United States
Federal agencies shot up 39 percent in FY 2010 when Federal agencies reported 41,776 cyber
attacks. More recently in July 2011, the Pentagon acknowledged a serious data breach when a
Department of Defense contractor suffered “one of its largest cyber attacks ever” when what it
believes to be a foreign government stole 24,000 files containing sensitive data. Lastly, a
July 2011 report from the National Security Council warns that international cybercrime has
reached the upper echelon of threats to the security of the United States and poses a significant
threat to sensitive corporate and government computer networks.

                                                                                           Page 13
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



For FY 2011, the TIGTA cited that “Securing the IRS” was the top management challenge for
the IRS. This priority designation was given due to increasing threats, both cyber and physical,
against the IRS and the potentially expanding role of the IRS. Animosity towards tax collection
is nothing new, though the threat vector has increased recently. For the IRS, the threat became
reality when, in February 2010 in Austin, Texas, a disgruntled taxpayer flew his small aircraft
into a building partially occupied by the IRS with the intent of killing as many IRS employees as
possible.

Some Progress Is Being Made to Improve Information Security
The Cybersecurity organization within the MITS organization has primary responsibility for
guiding the IRS in its efforts to protect computer systems and sensitive data and is responsible
for ensuring the IRS’s compliance with Federal statutory, legislative, and regulatory
requirements governing measures to assure the confidentiality, integrity, and availability of IRS
electronic systems, services, and data. The Cybersecurity organization provides management
and oversight for the IRS Information Technology Security Program. Its mission is to assure the
security and resilience of information technology systems and data by providing solutions to the
security risks encountered by business customers. The security environment in which the IRS
operates is constantly changing. Third-party communications and new centers of communication
have merged to challenge the outdated environment formed more than a half a century ago.
Nevertheless, close collaboration and cooperation with all organizations remain crucial to
meeting the IRS’s strategic goals.
The IRS is making some progress over information security and continues to place a high
priority on efforts to improve its information security program. For example, in the IRS’s
Strategic Plan for FYs 2009 to 2013, one of the major trends affecting the IRS is the “explosion
in electronic data, online interactions, and related security risks.” Another example of the IRS’s
commitment toward information security is the IRS’s Information Technology Security Program
Plan, issued in September 2009. The Information Technology Security Program Plan is designed
to enhance collaboration, provoke thought and comment, and guide all security efforts across the
IRS community. In addition, the Plan serves as a roadmap and a basis for benchmarking
information security performance toward attaining security objectives. Lastly, senior leaders of
the IRS will be able to use the Security Program Plan as input to their strategic business planning
process.
During FY 2011, we conducted several audits on information security and found the IRS is
taking steps for securing technology.
   •   During our review to determine whether IRS controls, policies, and procedures for
       sensitive email messages to taxpayers adequately protected taxpayer data, we found the
       IRS is using email to enhance customer service and provide a more expedient and
       efficient way to exchange information. In addition, the IRS has effective controls to

                                                                                           Page 14
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



         remove email accounts from the email system when the employee separates from the
         IRS. In FY 2010, the IRS conducted monthly security assessments of its email servers.18
     •   During our review to evaluate security over the IRS’s use of wireless technologies and
         the IRS’s development of a smartphone application, IRS2GO, we found security
         configurations were generally in place and working as intended.19
     •   During our review to evaluate whether the IRS implemented access controls on its
         Automated Insolvency System, we found the IRS established access controls, such as
         automatic system lockout after three unsuccessful login attempts, good password
         requirements, and restricting database access to only database administrators, which
         limits who has access to the systems.20
     •   During our review21 to evaluate whether the CADE 2 Program Management Office
         planned and provided oversight for Transition State 1 design activities, we found that the
         IRS planned enhanced security controls for the CADE 2 system and the Cybersecurity
         organization was heavily engaged and proactive in its assigned role of managing all
         aspects of CADE 2 system security. In addition, the IRS contracted with an independent
         firm to complete a threat susceptibility analysis on the CADE 2 Transition State 1. The
         contractor’s report concluded that threats to the CADE 2 Transition State 1 by external
         interfaces and databases appear to be minimal.22
     •   During our review to determine whether adequate security controls have been established
         for the International Business Machines Corporation (IBM) DB2 databases running on
         the IBM z/OS operating system, we reviewed two applications (the Electronic Tax
         Administration Marketing Database and the Tax Return Database) owned by the Wage
         and Investment Division that share resources on the IBM mainframe to verify that the
         implementation of these applications met IRS standards. Our analysis of system files and
         system-generated reports verified that both applications met the IRS configuration and
         security standards for the IBM z/OS operating system and the DB2 database.23
However, computer security remains the top management challenge and continued vigilance is
needed to minimize security weaknesses throughout the IRS and ensure the IRS becomes a
security-conscious organization.




18
   See Appendix IV, Number 16.
19
   See Appendix IV, Number 23.
20
   See Appendix IV, Number 18.
21
   See Appendix IV, Number 9.
22
   See Appendix IV, Number 7.
23
   See Appendix IV, Number 26.
                                                                                            Page 15
                             Annual Assessment of the Internal Revenue Service
                                      Information Technology Program



Computer security remains as a material weakness
The Federal Managers Financial Integrity Act of 198224 requires that each agency conduct annual
evaluations of its systems of internal accounting and administrative controls and submit an
annual statement on the status of the agency’s system of management controls. In the event that
an agency determines the existence of shortcomings in operations or systems which severely
impair or threaten the organization’s ability to accomplish its mission or to prepare timely and
accurate financial statements, the Department of the Treasury directs the agency to declare a
material weakness on that particular area.
In Calendar Year 1997, the IRS designated computer security as a material weakness. The
computer security material weakness compromises the accuracy and availability of the IRS
financial information and places sensitive information regarding IRS operations and taxpayers at
risk. The IRS further categorized the computer security material weakness into nine
components: (1) network access controls; (2) key computer applications and system access
controls; (3) software configuration; (4) functional business, operating, and program units
security roles and responsibilities; (5) segregation of duties between system and security
administrators; (6) contingency planning and disaster recovery; (7) monitoring of key networks
and systems; (8) security training; and (9) certification and accreditation.
According to the IRS, the IRS had closed or completed all planned actions for five of the nine
components: (1) network access controls (completed in July 2010); (2) functional business,
operating, and program unit security roles and responsibilities (completed in March 2009);
(3) segregation of duties between system and security administrators (closed in September 2005);
(4) security training (closed in October 2008); and (5) certification and accreditation (closed in
October 2008).
Since June 2010, we conducted four audits related to the computer security material weakness.
The IRS agreed with the findings below and provided adequate corrective actions to address our
findings unless noted otherwise.
       •   During our review of enterprise audit trails, we reported that, while the IRS has taken
           several steps to improve its management of audit trails and has significantly increased its
           staffing and funding for FY 2010, substantial efforts and sustained funding are needed to
           address the audit trails portion of the computer security material weakness. We reviewed
           20 major computer systems to determine the level of compliance with the IRS’s audit
           trail policy and guidance and found that events were not being adequately captured and
           reviewed on many databases, applications, and operating systems because: (1) very few
           systems have audit plans, (2) the IRS did not have adequate event capturing and report




24
     Pub. L. No. 97-255 (31 U.S.C. §§ 1105, 1106, 1108, 1113, 3512).
                                                                                              Page 16
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



         generating software tools, (3) audit reports were not being generated, and (4) the IRS
         determined that capturing required events could hurt system performance.25
     •   During our review of the security roles and responsibilities component of the material
         weakness, we found the IRS completed the necessary work on two of the six corrective
         actions established to address this material weakness component. The other four
         corrective actions pertained to: (1) document information technology security roles and
         responsibilities, (2) develop and document day-to-day information technology security
         procedures and guidelines, (3) conduct compliance assessments to verify and validate
         security roles and responsibilities, and (4) establish metrics to measure successful
         operations. Although the IRS made progress in correcting previously reported
         information security weaknesses, lack of adherence to guidelines continues to jeopardize
         the confidentiality, integrity, and availability of financial and sensitive taxpayer
         information.26
     •   During our review of the assessment of ongoing disaster recovery, we found the IRS
         completed or will complete many of the corrective actions to address the contingency
         planning and disaster recovery component of the material weakness. As a result, the IRS
         will be downgrading this component during FY 2011.27
     •   During our review of the IRS’s Federal Financial Management Improvement Act of
         199628 remediation plans for the period of January to September 2009, we found the IRS
         has experienced difficulties in developing comprehensive remediation actions required to
         resolve noncompliance related to computer security and reliably estimating the resources
         and time necessary to implement remedial actions. Complete and reliable information is
         critical to the IRS’s ability to accurately report on the results of its operations to both
         internal and external stakeholders, including taxpayers.29
In addition, during May 2010 to March 2011, the Government Accountability Office assessed
whether controls over key financial and tax processing systems are effective in ensuring the
confidentiality, integrity, and availability of financial and sensitive taxpayer information in
conjunction with its audits of the IRS’s FY 2010 and 2009 financial statements. The
Government Accountability Office found that the IRS did not consistently implement controls
that were intended to prevent, limit, and detect unauthorized access to its financial systems and
information. For example, the agency did not sufficiently (1) restrict users’ access to databases
to only the access needed to perform their jobs; (2) secure the system it uses to support and
manage its computer access request, approval, and review processes; (3) update database


25
   See Appendix IV, Number 12.
26
   See Appendix IV, Number 13.
27
   See Appendix IV, Number 22.
28
   Pub. L. No. 104-208, 110 Stat. 3009.
29
   See Appendix IV, Number 10.
                                                                                            Page 17
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



software residing on servers that support its general ledger system; and (4) enable certain
auditing features on databases supporting several key systems. In addition, 65 (about 74 percent)
of 88 previously reported weaknesses remain unresolved or unmitigated.
The Government Accountability Office stated that until the IRS corrects the identified
weaknesses, its financial systems and information remain unnecessarily vulnerable to insider
threats, including errors or mistakes and fraudulent or malevolent acts by insiders. As a result,
financial and taxpayer information are at increased risk of unauthorized disclosure, modification,
or destruction; financial data is at increased risk of errors that result in misstatement; and the
IRS’s management decisions may be based on unreliable or inaccurate financial information.
These weaknesses, considered collectively, were the basis for the Government Accountability
Office’s determination that the IRS had a material weakness in internal control over financial
reporting related to information security in FY 2010.

Continued Emphasis and Attention Is Needed to Allow the Internal
Revenue Service to Become a Security-Conscious Organization
As mandated by the Federal Information Security Management Act, we report annually on the
effectiveness of the IRS information security program. The Office of Management and Budget
identified 10 information security areas to be evaluated under the Federal Information Security
Management Act review. Based on our work during the reporting period July 2009 to
June 2010, we determined the IRS Information Security Program was generally compliant with
Federal Information Security Management Act legislation, Office of Management and Budget
requirements, and related information security standards. Specifically, the IRS met the level of
performance for three program areas: certification and accreditation, incident response and
reporting, and remote access management. While the IRS was generally compliant with the
Federal Information Security Management Act legislation, the program was not fully effective as
a result of conditions identified in the other seven program areas: configuration management,
security training, the process for managing weaknesses, identity and access management,
continuous monitoring, contingency planning, and contractor systems/financial audit.
In addition, we identified some security weakness commonalities across several audits during
our reporting period.
   •   The IRS did not follow security evaluative processes prior to deploying systems and
       technologies.
           o During our review to determine whether General Support Systems security
             controls have been effectively implemented to ensure Federal tax data are
             protected, we found the IRS did not conduct adequate risk assessments prior to




                                                                                          Page 18
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



                approving exceptions to required security controls on two General Support
                Systems.30
            o During our review to determine whether the IRS adequately tested and secured
              the IRS2GO smartphone application that allows taxpayers to check the status of
              their refunds, we found the IRS2GO application was made available to the public
              prior to receiving authorization for release. Specifically, the security accreditation
              and privacy impact assessment was approved after the January 21, 2011, release.31
            o During our review to determine whether the IRS’s current plans for increasing
              authorized use of wireless technology at IRS facilities are in accordance with
              Federal wireless security standards, we found that the wireless remote
              configuration in use at the IRS had not been properly assessed or approved for use
              in the IRS.32
     •   The IRS did not always ensure security controls were implemented on its systems or
         computer environment.
            o During our review to determine whether the IRS adequately configured databases
              operating in its nonmainframe environment to properly secure taxpayer data, we
              identified high- and medium-risk security vulnerabilities on all 13 databases
              reviewed. These vulnerabilities pertained to account management controls (e.g.,
              default accounts, weak password settings), access privilege management controls
              (e.g., powerful administrative privileges not assigned based on job functions), and
              operating system protection controls (e.g., user access to source code).33
            o During our review to evaluate whether the IRS implemented access controls on its
              Automated Insolvency System application, we found employees had excessive
              access privileges to the Automated Insolvency System application because duties
              were not adequately separated among employees to prevent and detect
              unauthorized activities and a role-based access control scheme was not adequately
              implemented on the system.34
            o During our review to determine whether IRS controls, policies, and procedures
              for sensitive email messages to taxpayers adequately protected taxpayer data, we
              found the IRS had not implemented an automated control to detect and prevent
              sensitive tax data in unencrypted emails from being transmitted to those outside
              the IRS. Prior to November 2007, the IRS maintained a long-standing policy that


30
   See Appendix IV, Number 11.
31
   See Appendix IV, Number 23.
32
   See Appendix IV, Number 19.
33
   See Appendix IV, Number 17.
34
   See Appendix IV, Number 18.
                                                                                           Page 19
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



                  prohibited sending taxpayer data in emails to taxpayers or taxpayers’
                  representatives. The IRS relaxed its email policy in November 2007 when it
                  approved the use of technology to encrypt emails to taxpayers, thereby protecting
                  taxpayer data being sent to and received by taxpayers.35
Until the IRS continues to blend security into its business operations and processes, addresses
each computer security material weakness component with the necessary resources and funding,
and minimizes the existences of new security weaknesses, the IRS will continue to put the
confidentiality, integrity, and availability of financial and taxpayer information maintained and
processed on its computer systems at risk.

Information Technology Operations Background
The Enterprise Operations’ mission supports the MITS organization by providing efficient,
cost-effective, secure, and highly reliable computing (mainframe and server) services for all IRS
business entities and taxpayers. The Enterprise Operations organization’s Enterprise Computing
Center is responsible for providing support for the systems used to receive and process tax
returns and payments and all infrastructure servers enterprise-wide and application servers
located in the 10 campuses and non-Enterprise Computing Center sites.

The Information Technology Operations Program Has Improved Its
Efficiency and Effectiveness
The Information Technology Infrastructure Library® is a set of concepts and practices for
information technology service management. The Information Technology Infrastructure
Library focuses on the key service management principles pertaining to service strategy, service
design, service transition, service operation, and continual service improvement.
In September 2010, the Chief Technology Officer outlined a goal to have the MITS organization
implement the Information Technology Infrastructure Library best practices over the next several
years. The MITS Process Re-Engineering Executive Steering Committee governs the
implementation of the Information Technology Infrastructure Library. Responsibility for
implementing key Information Technology Infrastructure Library concepts has been assigned to
Enterprise Operations executives, with an implementation plan due in September 2011.
In addition, the Quality Assurance Program Office is part of the Applications Development
function’s effort in leading a MITS organization-wide initiative to use the Software Engineering
Institute’s Capability Maturity Model Integration. The Capability Maturity Model Integration
consists of best practices that organizations follow to improve effectiveness, efficiency, and
quality of their product and service development work. Specifically, the MITS organization is


35
     See Appendix IV, Number 16.
                                                                                            Page 20
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



planning to use the Capability Maturity Model Integration-Development model to help improve
its development and maintenance processes for both products and services.
During FY 2011, we conducted several audits on information technology operations and found
the IRS is taking steps to improve operational efficiency and effectiveness.
     •   During our review to evaluate the efficiency and effectiveness of the capacity and
         performance management of the IRS mainframe computing environment, we found the
         capacity management policy and procedures have incorporated Information Technology
         Infrastructure Library best practice principles. We also found personnel responsible for
         the capacity management of the IBM and Unisys mainframe environments are actively
         monitoring mainframe performance against their own informal measures. The IBM
         capacity managers create an annual capacity report, as well as various day-to-day
         application-specific reports. The Unisys capacity managers create periodic reports on
         daily, weekly, and weekend transaction processing.36
     •   During our review to determine whether the Service Operations Command Center Branch
         has effectively implemented Information Technology Infrastructure Library best
         practices, we found the Service Operations Command Center Branch has incorporated the
         Information Technology Infrastructure Library best practice principles of Event
         Management, Incident Management, and Problem Management into its Concept of
         Operations and policies and procedures. In addition, the Service Operations Command
         Center Branch has made these best practices a part of the way it does business by
         utilizing a Knowledge Database. Lastly, our review of Priority 1 and Priority 2 incident
         tickets determined tickets worked by Command Center personnel were resolved within
         documented service level agreement time periods.37
     •   During our review to determine whether the Applications Development function’s
         Quality Assurance Program Office ensures development projects implement a
         coordinated set of activities that conform to organizational policies, processes, and
         procedures that meet the standards of the Software Engineering Institute’s Capability
         Maturity Model Integration – Development maturity level 2, we found the Quality
         Assurance Program Office’s processes, guidance, and procedures generally meet the
         Capability Maturity Model Integration maturity level 2 requirements for quality
         assurance.38
     •   During our review to determine the effectiveness of the IRS efforts to address the critical
         issue of sustaining the IRS information technology infrastructure, we found the
         Sustaining Infrastructure Program developed and implemented a process for identifying,


36
   See Appendix IV, Number 27.
37
   See Appendix IV, Number 24.
38
   See Appendix IV, Number 5.
                                                                                            Page 21
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



          reviewing, prioritizing, and making decisions on funding the replacement of aged
          computer hardware as well as other critical infrastructure needs. The Sustaining
          Infrastructure Program is significantly improved, and agreed-upon prior
          recommendations are being implemented. The annual baseline amount allocated to the
          Sustaining Infrastructure Program is approximately $150 million, and the program is
          centralized to ensure the replacement of the IRS information technology infrastructure is
          addressed corporately.39
As a result of implementing the best practices and consolidating security activities, the IRS
reported $75 million in operational efficiencies gained in its FY 2012 budget request
justification. While operational efficiencies have been reported, additional opportunities to
improve operations remain.

Actions have been taken to improve the energy efficiency of desktop computer
equipment
On January 24, 2007, President George W. Bush signed Executive Order 13423, Strengthening
Federal Environmental, Energy, and Transportation Management. The purpose of this policy
was to strengthen the environmental, energy, and transportation management of Federal agencies
by “conducting their environmental, transportation, and energy-related activities under the law in
support of their respective missions in an environmentally, economically, and fiscally sound,
integrated, continuously improving, efficient, and sustainable manner.” In July 2007, the
Department of the Treasury established the Electronics Stewardship Program and
Implementation Plan to ensure sustainable practices in the area of electronics and to provide
policy and guidance regarding acquisition, operations and maintenance, and end-of-life
management.
Executive Order 13423 requires Federal agencies to, in part:
      •   Improve energy efficiency of agency facilities 3 percent annually through the end of
          FY 2015 or 30 percent by FY 2015 compared to the FY 2003 baseline year, thereby
          reducing greenhouse gas.
      •   Acquire electronic products (at least 95 percent) that are an Electronic Product
          Environmental Assessment Tool-registered product, unless there is no Electronic Product
          Environmental Assessment Tool standard for such product, and enable ENERGY STAR®
          features on agency computers and monitors.
The Electronic Product Environment Assessment Tool is a system that helps purchasers evaluate,
compare, and select electronic products based on their environmental attributes. ENERGY
STAR is a joint program of the Environmental Protection Agency and the Department of Energy


39
     See Appendix IV, Number 21.
                                                                                            Page 22
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



designed to help save money and protect the environment through energy efficient products and
practices.
During our review to determine whether the IRS has taken effective steps to ensure the
acquisition, operation, and maintenance of energy efficient desktop computer equipment, we
determined the IRS is purchasing energy efficient desktop computer equipment and has enabled
an energy saving feature on computer monitors that puts the monitors in “sleep mode” during
periods of inactivity.40

Operational efficiency and effectiveness can be improved
The Clinger-Cohen Act of 199641 requires agencies to use a disciplined capital planning and
investment control process to maximize the value of information technology investments and
manage the acquisition risk.
During FY 2011, we conducted several audits on information technology operations and found
opportunities for the IRS to improve operational efficiency and effectiveness.
     •   During our review to evaluate the efficiency and effectiveness of the capacity and
         performance management of the IRS mainframe environment, we found license costs for
         the software products residing on the IRS mainframes are tied to the mainframe capacity,
         or number of Millions of Instructions Per Second (allocated to the machines). A
         whitepaper prepared by the IRS noted that there is an opportunity for the IRS to reduce
         its software license costs by changing the measure it uses to calculate the capacity of its
         mainframes from Millions of Instructions Per Second to Millions of Service Units. Had
         the IRS made the conversion from a Millions of Instructions Per Second basis for
         determining the capacity of its IBM mainframes to Millions of Service Units, the IRS
         could have realized software licensing cost savings of $580,358, using the 10 percent
         reduction estimate in the IRS whitepaper.42
     •   During our review to determine whether the Service Operations Command Center Branch
         has effectively implemented Information Technology Infrastructure Library best
         practices, we found Command Center personnel should examine incident reports to
         identify trends within the information technology infrastructure, Command Center
         Branch management needs to conduct a baseline assessment of its staffing and workload,
         the Service Operations Command Center Branch needs to have a documented strategic
         plan to communicate its goals and priorities with milestone and target dates, and

40
   See Appendix IV, Number 20.
41
   Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
42
   See Appendix IV, Number 27.
                                                                                                            Page 23
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



         personnel need customized training to effectively implement the Information Technology
         Infrastructure Library.43
     •   During our review to determine whether adequate security controls have been established
         for the IBM DB2 databases running on the IBM z/OS operating system, we found the
         security policies and configuration settings were in compliance with Government and
         industry standards and effectively implemented.
         However, in July 2010, the Cybersecurity organization purchased the IBM Guardium
         software application to perform automated vulnerability scans of its databases. The
         enterprise-wide software license covering 3,000 processors and the hardware needed to
         perform automated vulnerability scans cost $3.3 million. The IRS originally anticipated
         implementation by December 2010. However, by July 2011, the IBM Guardium
         software application still had not been implemented enterprise-wide because of,
         according to IRS management, other higher priorities and the lack of support needed
         from several organizations. In June 2011, the IRS received an invoice for approximately
         $700,000 to renew the annual software application license. This invoice was paid in
         order to continue deployment and avoid penalties for a lapse in maintenance; however,
         the application had not been fully implemented, resulting in an inefficient use of
         resources.44
     •   During our review to determine whether the Applications Development function’s
         Quality Assurance Program Office ensures development projects implement a
         coordinated set of activities that conform to organizational policies, processes, and
         procedures that meet the standards of the Software Engineering Institute’s Capability
         Maturity Model Integration – Development maturity level 2, we found the Quality
         Assurance Program Office audit documentation and procedures need improvement.45
     •   During our review to determine whether the IRS has taken effective steps to ensure the
         acquisition, operation, and maintenance of energy efficient desktop computer equipment,
         we determined the IRS has not established an implementation strategy to ensure timely
         completion of applicable action items in the Electronics Stewardship Program and
         Implementation Plan. For example, timely actions have not been taken to implement
         power management (e.g., power down/sleep mode) functionality on desktop computers
         (also includes laptop computers). Policies and procedures have not been established to
         implement duplex (two-sided) printing on printers.46




43
   See Appendix IV, Number 24.
44
   See Appendix IV, Number 26.
45
   See Appendix IV, Number 5.
46
   See Appendix IV, Number 20.
                                                                                          Page 24
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



Measuring and reporting operational results can be improved
Industry best practices emphasize that identifying the appropriate measures, creating a process
for collecting and analyzing the data, and effectively using the data to guide and direct continued
improvement are essential to establishing a successful measurement process. Meaningful key
performance indicators should align with organizational goals and provide insight into the
following: Quality, Efficiency, Compliance, and Value. Also, metrics should be specific,
measurable, attainable, realistic, and time driven. Metrics help to ensure that the process in
question is running effectively and efficiently.
During FY 2011, two audits we conducted identified opportunities to improve the measuring and
reporting operational results.
      •   During our review to evaluate the efficiency and effectiveness of the capacity and
          performance management of the IRS mainframe environment, we found performance
          measurement requirements in Defined-Service Agreements are not formally established
          to facilitate the management and reporting of mainframe performance. Our review of the
          20 Defined-Service Agreements found that the Enterprise Operations organization is not
          consistently including measurable performance metrics such as availability, reliability,
          performance, and capacity in these agreements. Only 4 of the 20 Defined-Service
          Agreements contained any measurable performance metrics.47
      •   During our review to determine whether the Service Operations Command Center Branch
          has effectively implemented Information Technology Infrastructure Library best
          practices, we found additional measures are needed to capture the improved efficiency
          and effectiveness resulting from the Information Technology Infrastructure Library.48




47
     See Appendix IV, Number 27.
48
     See Appendix IV, Number 24.
                                                                                           Page 25
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the status of the IRS’s Information Technology Program
since June 2010 as required by the IRS Restructuring and Reform Act of 1998.1 The scope of
this assessment covers information technology security, modernization, and operations and
includes the TIGTA audit reports that have been issued to the IRS from June 2010 through
July 2011.
I.      Determined and provided an overall assessment of the IRS’s Information Technology
        Program.
        A. Assessed the Information Technology Security and Privacy issues. We
           determined which are at high risk for delivering IRS program objectives and
           protecting tax administration data by analyzing the TIGTA Security Directorate audit
           report issues identified during the period June 2010 through July 2011. We also
           reviewed the prior three annual assessment reports for any trends in security and
           privacy issues.
        B. Assessed Information Technology Modernization issues. We determined which
           are at high risk for delivering IRS program objectives and protecting tax
           administration data by analyzing the TIGTA Modernization Directorate audit report
           issues identified during the period June 2010 through July 2011. We also reviewed
           the prior three annual assessment reports for any trends in modernization issues.
        C. Assessed Information Technology Operations issues. We determined which are at
           high risk for delivering IRS program objectives and protecting tax administration data
           by analyzing the TIGTA Operations Directorate audit report issues identified during
           the period June 2010 through July 2011. Operations issues were not included in the
           prior annual assessment reports.
        D. Reviewed the TIGTA open audit inventory to identify ongoing audits of Information
           Technology security, modernization, and operations. We contacted audit staff to
           identify and clarify issues and obtain current estimates of report due dates.
        E. Met with each audit director and the Assistant Inspector General for Audit to discuss
           high-level messages or themes they determined are relevant and important to be
           conveyed through this year’s annual assessment report.


1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 26
                             Annual Assessment of the Internal Revenue Service
                                      Information Technology Program



           F. Discussed with the applicable audit directors and Assistant Inspector General for
              Audit whether the IRS’s current information technology security and modernization
              material weaknesses2 should remain or be downgraded.
           G. Reviewed and summarized any relevant congressional testimony and high-level
              briefings the TIGTA presented pertaining to IRS’s information technology security,
              modernization, and operations.
           H. Reviewed the April 2011 Interim Filing Season Report.
II.        Determined and summarized the results of any applicable oversight assessments of the
           IRS’s information technology security, modernization, and operations.
           A. Obtained, reviewed, and summarized applicable studies, reports, and legislative
              guidance from congressional committees.
           B. Obtained, reviewed, and summarized applicable studies, reports, and guidance from
              the IRS Oversight Board.
           C. Obtained, reviewed, and summarized relevant Government Accountability Office
              reports.
           D. Summarized the results of any IRS assessments and status information pertaining to
              the IRS’s Information Technology security, modernization, and operations. We
              reviewed key documents such as the Chief Technology Officer’s position on
              information technology material weaknesses, the IRS’s Modernization Vision and
              Strategy Program, MITS Business Value Chart, the IRS’s Information Technology
              Security Program Plan, the Business Systems Modernization Expenditure Plan, and
              the Fiscal Year 2012 IRS budget request justification.
Internal controls methodology
Internal controls include the processes and procedures for planning, organizing, directing, and
controlling program operations. They include the systems for measuring, reporting, and
monitoring program performance. We did not evaluate internal controls as part of this review
because doing so was not necessary to satisfy our review objective.




2
    See Appendix VI for a glossary of terms.
                                                                                           Page 27
                      Annual Assessment of the Internal Revenue Service
                               Information Technology Program



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Diana M. Tengesdal, Acting Director
Danny Verneuille, Director
Kimberly R. Parmley, Audit Manager
Charlene L. Elliston, Lead Auditor
Cari D. Fogle, Senior Auditor
Mary L. Jankowski, Senior Auditor
Ryan M. Perry, Senior Auditor
Hung Q. Dam, Information Technology Specialist
Kevin Liu, Information Technology Specialist




                                                                                     Page 28
                    Annual Assessment of the Internal Revenue Service
                             Information Technology Program



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Deputy Commissioner of Operations SE:W
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Associate Chief Information Officer, Affordable Care Act (PMO) OS:CTO:ACA
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Enterprise Network OS:CTO:EN
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Modernization Program Management Office OS:CTO:MP
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Director, Procurement OS:A:P
Director, Compliance OS:CTO:C
Director, CADE 2 Database Implementation OC:CTO:AD
Director, Program Management OS:CTO:AD:PM
Director, Privacy, Information Protection and Data Security OS:P
Director, Privacy, and Information Protection OS:PIP
Director, Cybersecurity Operation OS:CTO:C
Director, CADE 2/Health Care ACA OS:CTO:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Director, Risk Management Division OS:CTO:SP:RM




                                                                               Page 29
                   Annual Assessment of the Internal Revenue Service
                            Information Technology Program



                                                                                  Appendix IV

      Listing of Treasury Inspector General for Tax
            Administration Reports Reviewed

           Report
         Reference or
           (Audit)
Number     Number                      Report Title                      Report Issuance Date

  1       2010-20-099   The Federal Student Aid Datashare Application    Final Report Issued
                        Was Successfully Deployed, but Improvements
                                                                         September 2010
                        in Systems Development Disciplines Are
                        Needed
  2       2010-21-110   The Internal Revenue Service Should Strengthen   Final Report Issued
                        Processes for Managing Recovery Act Funds
                                                                         September 2010
                        Used for the Health Coverage Tax Credit
  3       2010-20-094   Annual Assessment of the Business Systems        Final Report Issued
                        Modernization Program
                                                                         September 2010
  4       2011-20-001   Prototype Process Improvements Will Benefit      Final Report Issued
                        Efforts to Modernize Taxpayer Account
                                                                         November 2010
                        Administration
  5       2011-20-007   The Applications Development Function’s          Final Report Issued
                        Quality Assurance Program Office Can Make
                                                                         February 2011
                        Its Processes More Effective

  6       2011-20-088   The Modernized e-File Release 6.2 Included       Final Report Issued
                        Enhancements, but Improvements Are Needed
                                                                         September 2011
                        for Tracking Performance Issues and Security
                        Weaknesses
  7       (201120001)   The Customer Account Data Engine 2 Is            Draft Report Issued
                        Making Progress Toward Achieving Daily
                                                                         August 2011
                        Processing, but Improvements Are Warranted
                        to Ensure Full Functionality
  8       2011-20-110   The Customer Account Data Engine 2 Database      Final Report Issued
                        Implementation Project Made Progress in
                                                                         September 2011
                        Design Activities, but Improvements Are
                        Needed


                                                                                               Page 30
                   Annual Assessment of the Internal Revenue Service
                            Information Technology Program




           Report
         Reference or
           (Audit)
Number     Number                       Report Title                      Report Issuance Date

  9       (201020025)   The Customer Account Data Engine 2 Program        Draft Report Issued
                        Management Office Implemented Systems
                                                                          August 2011
                        Development Guidelines; However, Process
                        Improvements Are Needed to Address
                        Inconsistencies
  10      2010-10-065   Measurable Progress Has Been Made in              Final Report Issued
                        Addressing Federal Financial Management
                                                                          June 2010
                        Improvement Act Noncompliance; However,
                        Significant Challenges Remain
  11      2010-20-063   Sensitive But Unclassified – Implementation       Final Report Issued
                        of General Support Systems Security Controls
                                                                          June 2010
                        Needs Improvement to Protect Taxpayer Data
  12      2010-20-082   Sensitive But Unclassified – Additional Actions   Final Report Issued
                        and Resources Are Needed to Resolve the Audit
                                                                          July 2010
                        Trail Portion of the Computer Security Material
                        Weakness
  13      2010-20-084   More Actions Are Needed to Correct the            Final Report Issued
                        Security Roles and Responsibilities Portion of
                                                                          August 2010
                        the Computer Security Material Weakness
  14      2010-20-101   Treasury Inspector General for Tax                Final Report Issued
                        Administration – Federal Information Security
                                                                          September 2010
                        Management Act (Non-Intelligence National
                        Security Systems) Report for Fiscal Year 2010
  15      2011-20-003   Treasury Inspector General for Tax                Final Report Issued
                        Administration – Federal Information Security
                                                                          November 2010
                        Management Act Report for Fiscal Year 2010
  16      2011-20-012   Additional Security Is Needed for the Taxpayer    Final Report Issued
                        Secure Email Program
                                                                          February 2011
  17      2011-20-044   Security Over Databases Could Be Enhanced         Final Report Issued
                        to Ensure Taxpayer Data Are Protected
                                                                          May 2011
  18      2011-20-046   Access Controls for the Automated Insolvency      Final Report Issued
                        System Need Improvement
                                                                          May 2011




                                                                                                Page 31
                   Annual Assessment of the Internal Revenue Service
                            Information Technology Program




           Report
         Reference or
           (Audit)
Number     Number                       Report Title                      Report Issuance Date

  19      2011-20-101   Security Controls Over Wireless Technology        Final Report Issued
                        Were Generally in Place; However, Further
                                                                          September 2011
                        Actions Can Improve Security
  20      2010-20-056   Additional Efforts Are Needed to Implement        Final Report Issued
                        the Electronics Stewardship Program and
                                                                          June 2010
                        Maximize the Energy Efficiency of Desktop
                        Computer Equipment
  21      2011-20-006   The Sustaining Infrastructure Program Is          Final Report Issued
                        Significantly Improved and a Comprehensive
                                                                          December 2010
                        Information Technology Infrastructure Strategy
                        Has Been Developed
  22      2011-20-060   Corrective Actions to Address the Disaster        Final Report Issued
                        Recovery Material Weakness Are Being
                                                                          June 2011
                        Completed
  23      2011-20-076   The IRS2GO Smartphone Application Is Secure,      Final Report Issued
                        but Development Process Improvements Are
                                                                          August 2011
                        Needed
  24      2011-20-078   Service Operations Command Center                 Final Report Issued
                        Management Can Do More to Benefit From
                                                                          August 2011
                        Implementing the Information Technology
                        Infrastructure Library
  25      2011-20-105   The Modernization and Information Technology      Final Report Issued
                        Services Organization Is Effectively Planning
                                                                          September 2011
                        for the Implementation of the Affordable Care
                        Act
  26      (201120021)   The Mainframe Databases Reviewed Met              Draft Report Issued
                        Security Requirements; However, Automated
                                                                          August 2011
                        Security Scans Were Not Performed
  27      2011-20-074   Mainframe Computer Performance Is Being           Final Report Issued
                        Actively Monitored, but Defined-Service
                                                                          September 2011
                        Agreements and Software Licensing Can Be
                        Improved
  28      (201140030)   Low Participation and Tax Return Volumes          Draft Report Issued
                        Continue to Hinder the Transition of Individual
                                                                          August 2011
                        Income Tax Returns to the Modernized e-File
                        System


                                                                                                Page 32
                             Annual Assessment of the Internal Revenue Service
                                      Information Technology Program



                                                                                                  Appendix V

                     Project Cost and Schedule Variances

This table presents the cost and schedule variance for the Modernization Program project
releases1 delivered in FY 2011through June 2011.

                                                          Current           Cost        Schedule         Schedule
                           Current                         Cost           Variance      Variance         Variance
        Release           Finish Date       Milestone      (000)        (Percentage)     (Days)        (Percentage)

    Current CADE

          6.2          January 14, 2011        4b             22,000         0%            -102            -6%

    CADE 2

     Trans State 1      April 18, 2011        3–4a            24,200         0%            -11             -6%

    MeF

          6.2           May 18, 2011          4b–5            13,000         0%             1              1%

           7            April 26, 2011        3–4a            27,705       -24%3            0              0%

    Source: Business Systems Modernization Monthly Performance Measures Report, issued July 5, 2011.




1
  See Appendix VI for a glossary of terms.
2
  A negative schedule variance indicates the milestone was completed before the planned date.
3
  According to the IRS, this variance resulted from lower than expected hardware and software costs.
                                                                                                           Page 33
                        Annual Assessment of the Internal Revenue Service
                                 Information Technology Program



                                                                               Appendix VI

                              Glossary of Terms

            Term                                          Definition
Account Management Services The Account Management Services project will modernize the
                            capability to collect, view, retrieve, and manage taxpayer
                            information.
Best Practice                   A technique or methodology that, through experience and
                                research, has proven to reliably lead to a desired result.
Business Systems                The Business Systems Modernization Program, which began
Modernization                   in 1999, is a complex effort to modernize the IRS’s
                                technology and related business processes.
Capability Maturity Model®      A structured process that helps organizations improve their
                                abilities to consistently and predictably acquire and develop
                                high-quality information systems. Organizations that have
                                implemented Capability Maturity Model processes have seen
                                dramatic improvements in their abilities to meet planned time
                                periods, reduce errors, and increase value on dollars invested.
Customer Account Data           The foundation for managing taxpayer accounts in the IRS
Engine (CADE)                   modernization plan. It will consist of databases and related
                                applications that will replace the existing IRS Master File
                                processing systems and will include applications for daily
                                posting, settlement, maintenance, refund processing, and issue
                                detection for taxpayer tax account and return data.
Customer Account Data           Creates a modernized processing and data-centric
Engine 2 (CADE 2)               infrastructure that will enable the IRS to improve the accuracy
                                and speed of individual taxpayer account processing, enhance
                                the customer experience through improved access to account
                                information, and increase the effectiveness and efficiency of
                                agency operations.
Enterprise Life Cycle           A structured business systems development method that
                                requires the preparation of specific work products during
                                different phases of the development process.


                                                                                        Page 34
                      Annual Assessment of the Internal Revenue Service
                               Information Technology Program




              Term                                        Definition
Federal Information Security    Legislation which requires the Inspector General to perform
Management Act of 2002          an annual independent evaluation of each Federal agency’s
                                information security policies, procedures, and practices as well
                                as evaluate its compliance with this law.
Filing Season                   The period from January through mid-April when most
                                individual income tax returns are filed.
Fiscal Year                     A 12-consecutive-month period ending on the last day of any
                                month except December. The Federal Government’s fiscal
                                year begins on October 1 and ends on September 30.
Master File                     The IRS database that stores various types of taxpayer account
                                information. This database includes individual, business, and
                                employee plans and exempt organizations data.
Material Weakness               Office of Management and Budget Circular A-123,
                                Management’s Responsibility for Internal Control, dated
                                December 2004, defines a material weakness as any condition
                                an agency head determines to be significant enough to be
                                reported outside the agency.
Milestone                       The “go/no-go” decision point in a project; it is sometimes
                                associated with funding approval to proceed.
Modernized e-File               The Modernized e-File project develops the modernized,
                                web-based platform for filing approximately 330 IRS forms
                                electronically, beginning with the U.S. Corporation Income
                                Tax Return (Form 1120), U.S. Income Tax Return for an
                                S Corporation (Form 1120S), and Return of Organization
                                Exempt From Income Tax (Form 990). The project serves to
                                streamline filing processes and reduce the costs associated
                                with a paper-based process.
Plan of Action and Milestones   A requirement for managing the security weaknesses
                                pertaining to a specific application or system. In addition to
                                noting weaknesses, each Plan of Action and Milestones item
                                details steps that need to be taken to correct or reduce any
                                weaknesses, as well as resources required to accomplish task
                                milestones and a correction timeline.
Release                         A specific edition of software.

                                                                                        Page 35
                      Annual Assessment of the Internal Revenue Service
                               Information Technology Program




            Term                                          Definition
Software Engineering Institute   A federally funded research and development center operated
                                 by Carnegie Mellon University and sponsored by the
                                 Department of Defense. Its objective is to provide leadership
                                 in software engineering and in the transition of new software
                                 engineering technology into practice.




                                                                                        Page 36
